12/03/02                TUE 08:59 FAX 423 241 3897               OIG                           *-*   HQ                 00o2




DOE F 132,.8

W.I: ((07.9u)


United States Government                                                         Department of Energy

 Memorandum
                DATE:    December 2,    2002

        REPLY TO
                  REPLY
                  TO         -36 (A02SR013)                                Audit Report No.: OAS-L-03-07
        ATTN OF:


        SUBJECT:         Audit of Subcontracting Practices at the Savannah River Site
                  TO:    Jeffrey M. Allison, Acting Manager, Savannah River Operations Office


                         INTRODUCTION AND OBJECTIVE

                         The Department of Energy (Department) has contracted with Westinghouse Savannah
                         River Company, LLC (Westinghouse) to manage and operate the Savannah River Site
                         (Savannah River) through September 30, 2006. As of August 2, 2002, Westinghouse had
                         534 open and active service procurements worth $100,000 or more each, with a total value
                         of about $518 million, that it had awarded since October 1996.

                         In order to promote competition, Federal Acquisition Regulations require Government
                         contractors to procure goods and services on a competitive basis to the maximum practical
                         extent, consistent with the objectives and requirements of the procurements. Accordingly,
                         Westinghouse established policy stating that it will apply the best in commercial practices
                         to ensure acquisition of quality goods and services at fair and reasonable prices, and will
                         use effective competitive techniques. In addition, for those situations where sole-source
                         transactions cannot be avoided, the policy requires that the procurement file adequately
                         document the exclusive capability of the selected vendor.

                         The objective of this audit was to determine whether Westinghouse's service
                         subcontracting practices result in the award of competitively bid subcontracts.

                         CONCLUSIONS AND ORSERVATIONS

                         As of August 2002, about 59 percent of Westinghouse's open and active service
                         procurements worth $100,000 or more were competitively awarded. 1However, of the 40
                         procurements we reviewed, 10 valued at about $10.7 million were not competed to the
                         maximum extent practicable. Specifically, seven were awarded on a sole-source basis
                         without substantiating the exclusive capability of the vendor, and three were awarded
                         competitively, but with restricted competition. The following are examples.

                         *   Westinghouse awarded a subcontract for-roof replacement, valued at about $746,000,
                             on a sole-source basis. However, the sole-source justification did not substantiate that


                                                                1
12/03/02   TUE 09:00 FAX 423 241 3897               OIG                            +-*- HQ                   o003




                this subcontractor offered exclusive capability over other potential sources. The buyer
                attributed the sole-source selection to receiving the Request for Proposal (RFP) late in
                the year and the need to award the subcontract before the end of the year.

            *   Westinghouse awarded a $315,000 subcontract for roofing inspection and oversight
                services to a bidder that did not meet the minimum safety performance factors listed in
                the RFP. When the number of bids received was less than expected, Westinghouse
                relaxed the minimum qualifications, rather than reissue the RFP. The original RFP
                stated that proposals not meeting the minimum requirements would be considered non-
                responsive. Under these circumstances, potential bidders may have met the revised
                minimum requirements, but did not have an opportunity to compete for the project.

            *   Westinghouse competitively awarded a subcontract for the performance of fast-
                turnaround chemical, analyses of soils, sediment, and water. However, when the
                quantity of these fast-turnaround analyses declined years later, Westinghouse revised
                the subcontract to allow the subcontractor to perform the same sampling analyses on a
                routine basis. Despite having subcontracts for routine analysis in place. Westinghouse
                did not request competitive bids from other vendors. Instead it negotiated a price of
                $200 per analysis on a sole-source basis. Had it solicited competitive bids, it may have
                acquired the analyses at lower prices.

            These conditions occurred because Westinghouse personnel did not always follow
            approved policies and procedures, and neither Westinghouse nor the Savannah River
            Operations Office (Operations Office) established internal controls to ensure employee
            compliance. As a result, the Department had no assurance that Westinghouse obtained the
            best value on the Department's behalf, and lost potential savings from competition.

            SCOPE AND METHODOLOGY

            The audit was performed at Savannah River between May and August 2002. The audit
            covered subcontracts greater than or equal to $100,000 that were awarded since October
            1996 and open and active as of August 2, 2002.

            To accomplish the audit objective, we reviewed Westinghousc's procurement policies and
            procedures, evaluated samples of subcontracts and purchase orders, and discussed
            procurement activities with Operations Office and Westinghouse personnel.

            The audit was performed in accordance with generally accepted Government auditing
            standards for performance audits and included tests of internal controls and compliance
            with laws and regulations to the extent necessary to satisfy the audit objective. In addition,
            we reviewed Westinghouse's compliance with the Government Performanceand Results
            Act of 1993. Because our review was limited, it would not necessarily have disclosed all
            internal control deficiencies that may have existed at the time of our audit. Further, we
            conducted a limited reliability assessment of computer-processed data from
            Westinghouse's purchasing system, and concluded that the data were reliable.




                                                   2
12/03/02   TUE 09:00 FAX 423   241 3897           OIG                              -"* HQ               I004




            We discussed the audit results with the Operations Office's Lead Contracting Officer for
            the Westinghouse contract on November 22, 2002. Since no formal recommendations are
            being made in this letter report, a formal response is not required. However, to maximize
            procurement competition, we suggest that you take appropriate action to ensure that
            Westinghouse complies with approved procurement policies and procedures. We
            appreciate the cooperation of your staff throughout the audit.




                                                      Srry    . r nd nger, Direc r
                                                   'nvi      inmental Audits Division
                                                   OfF ce of Inspector General

            cc: Assistant Secretary for Environmental Management
                Team Leader, Audit Liaison Team, ME-2
                Audit Liaison, Savannah River Operations Office




                                                  3
12/03/02   TUE 09:00 FAX 423 241 3897              OIG                           -44 HQ                    ]005


                                                            IG Report No.         OAS-L-03-07


                                     CUSTOMER RESPONSE FORM

              The Office of Inspector General has a continuing interest in improving
              the usefulness of its products. We wish to make our reports as responsive as possible to
              our customers' requirements, and therefore ask that you consider sharing your thoughts
              with us. On the back of this form, you may suggest improvements to enhance the
              effectiveness of future reports. Please include answers to the following questions if they
              are applicable to you:

              1.     What additional background information about the selection,
                     scheduling, scope, or procedures of the audit or inspection would have been
                     helpful to the reader in understanding this report?

              2.     What additional information related to findings and recommenda-
                     tions could have been included in this report to assist management in
                     implementing corrective actions?

              3.     What format, stylistic, or organizational changes might have made
                     this report's overall message more clear to the reader?

              4.     What additional actions could the Office of Inspector General have
                     taken on the issues discussed in this report which would have been helpful?

              Please include your name and telephone number so that we may contact you
              should we have any questions about your comments.


              Name                                             Date

              Telephone                                        Organization


              When you have completed this form, you may telefax it to the Office of
              Inspector General at (202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                     Department of Energy
                                     Washington, D.C. 20585
                                     ATTN: Customer Relations

              If you wish to discuss this report or your comments with a staff member
              of the Office of Inspector General, please contact Wilma Slaughter at (202) 586-1924.
 12/03/02             TUE 09:01 FAX 423 241 3897              OIG                            -*-   HQ                  007
DOcE F 12S.8

EFG (07-90)


United States Government                                                                    Department of Energy

 Memorandum
              DATE;    December 3,   2002
       RE
          PLY TO
                      IG-36
       ATTN OF:


       SUBJECT:       Audit Report on "Subcontracting Practices at the Savannah River Site"

                TO:   Team Leader, Audit Liaison Team (ME-2)

                      Attached is the subject audit report. Because no recommendations were made as a result of the audit,
                      there is no need to track the audit in the .Department's Audit Report Tracking System.

                      If you have any questions, please contract Philip Beckett at (865) 576-7400.

                      We appreciate your cooperation.




                                                                             (er     ndlaingcr, Dirce   r
                                                                       E       ronmental Audits Division
                                                                           flice of Inspector General


                      cc: Manager, Savannah River Operations Office
 12/03/02                TUE 09:00 FAX 423 241 3897               OIG                            -*-*   HQ                [•006
Le F n32:.f

l-:v(i (U7.-')


United States Government                                                          Department of Energy

 Memorandum
                 DATE:   December   2,   2002


         REPLYTO         IG-36 (A02SR013)
         ATTN OF:


         SUBJECT;        Final Report Package for Letter Report on Subcontracting Practices at the Savannah
                         River Site

                   TO: Director, Planning and Administration

                         Attached is the required final report package on the subject audit. The pertinent details are:

                         1. StaffDays:             Programmed     21.0          Actual    180

                         2. Elapsed Days           Programmed     210           Actual    187

                         3. Names of OIG audit staff:

                             Assistant Director:   Philip Beckett
                             Team Leader:          Vince LaBon
                             Auditor-in-Charge:    Troy McGahee
                             Audit Staff:          Brittania Melton

                         4   Coordination with Investigations and Inspections: Report was coordinated with Walt Warren,
                             Investigations, and Henry Minner, Inspections on November 6, 2002. This report will not impact
                             any ongoing investigations or inspections.

                         5. Matters to be brought to the attention of the 1G or AIGAS: None.




                                                                         Ter     .   en linger, irect r
                                                                         Eironmental Audits Division
                                                                         E
                                                                           fice of Inspector General
                         Attachments:
                         1. Final Report (3)
                         2. Monetary Impact Report
                         3. Audit Project Summary Report
                         4. Audit Database Information Sheet
12/03/02     TUE 09:01 FAX 423 241 3897                             OIG                                   -*-*    HQ                           o008




                               MONETARY IMPACT OF REPORT NO.:

         1. Title of Audit:      Subcontracting Practices at the Savannah River Site

         2. Division:            Environmental Audits Division/Savannah River Audit Group

         3. Project No.:         A02SR013

         4. Type of Audit

                  Financial:                                              Performance:                X
                    Financial Statement                                     Economy and Efficiency
                    Financial Related                                       Program Results                               X
                  Other (specify type):

   5.
                                                                                                                         M.OT.     POTENTIAL
              FINDING                     BETTER USED                               QUESTIONED COSTS                   POSITION     BUDGET
                                                                                                                                    IMPACT
                                                   Recumni
   (A)              (B)           (C)      (D)       (F)           (F)        (0)           (H)            (1)            (1)         (K)
                    Tille         One     Amount     No.       Total       Questioned   Unsupported       Total        C=Concur      Y=Yes
                                  Time     Per       YVs.     Amount        Poltion       Portion                      N-Nnonn       N-No
                                           Year              _J=                                                           Jndcc
           NONE




   TOTALS-ALL FINDINUS


         6. Remarks: N/A

         7. Contractor:                                            10. Approvals:
         8. Contract No.:                                          Division Director/Date:                               /./
         9. Task Order No.:                                        Technical Advisor & Date
 12/03/02       TUE 09:01 FAX 423 241 3897                                                       OIG                            -*--   HQ'              o00
                                                    office of the Inspector General                                    (OIG)
                                            Audit Project Office Summary                                               (APS)

                                                                                                                                                   Page 1   -
Report run on;                   December 3, 2002 8:26 AM


   Audit#: A02SR013             Ofc:      SRA             Title: SUBCONTRACTING PRACTICES AT SAVANNAH RIVER
                                       ............................
                                                         .        .. . ......................

                                                                               ****             Milestones ****
                                                  -------   ------    Planned  -------------                                            Actual
                                                      Profile      End of Survey          Revised
   Entrance Conference;                            19-FEB-02                                29-MAY-02             29-MAY-02       29-MAY-02
   Survey Completed:                               17-MAY-02                                    24-SEP-02         24-SEP-02        24-SEP-02
   Field Work Complete;
   Draft Report Issued:
   Exit Conference:
   Completed with Report:                          17-SEP-02                                                      29-NOV-02        02-DEC-02     (R)
   ---------    Elapsed Days                                    210                                                     193              187
   ----------     Staff Days;                                   210                                      0                               180

   Date Suspended:                                                                  Date Terminated:
   Date Reactivated:                                                               Date Cancelled:
   DaysSuspended(Cur/Tot) :                         0 (                          ) Report Number:                 OAS-L-03-07
   Rpt Title:        SUBCONTRACTING PRACTICES AT THE SAVANNAH RIVER SITE


                     ........                      ~~'*        ... Audit Codes and Personnel                           ****

   Aud Type: PRR           PROGRAM RESULTS
   Category: OTH           OTHER                                                                       AD:      180 LABON
   DOE-Org: SRO            SAVANNAH RIVER OPERA                                                        AIC:     241 .MCGAHEE
   Maj Iss: 022            PROGRAM MANAGEMENT A                                                        HDQ-Mon: 390 HANCOCK
   Site:         SSA SINGLE-SITE AUDIT                                                                 ARM:     327 BECKETT

                                                               ****           Task Information ****

          Task No:
          Task Order Dt:                                                           CO Tech. Rep:                   ,
          Orig Auth Hrs:                                                           Orig Auth Costs:
          Current Auth:                                                            Current Auth Cost:
          Tot Actl IPR Hr:                                                         Tot Actl Cost:


                                                                       '***          Time Charges ****

                     .Emp/Cont Name                       Numdays                                  Last.Date
                     HILL, A                                       6.3                            29-JUN-02
                     LABON, V                                      8.4                            16-NOV-02
                     MCGAHEE, T                                 81.8                              16-NOV-02
                     MELTON, B                                         83                         16-NOV-02
                     [Total:                                  179.5
 12/03/02    TUE 09:01 FAX 423 241 3897               OIG                       44   HQ        o010
                                 Office of the Inspector General (OIG)
                               Audit Project Office Summary             (APS)

                                                                                          Page 3
Report run on:           December 3, 2002 8:26 AM


                           |               Audit History

 Audit No:    A02SR013                History Date:         03-DEC-02
  History Text;
  SMP/LETTER REPORT ISSUED 02-DEC-2002.




                                          .........
                                            ..
12/03/02   TUE 09:01 FAX 423 241 3897                       OIG                                  -.- HQ                    O




                           AUDIT DATABASE INFORMATION SHEET

              1.   Project No.:      A02SR013

              2.   Title of Audit:    Sucontracting Practices at the Savannah River Site

              3.   Report No./Datc

              4.   Management Challenge Area: Contract Administration

              5.   Presidential Mgmt Initiative: N/A

              6.   Secretary Priority/Initiative: N/A

              7.   Program Code:      MA

              8.   Location/Sites: ;Saannah River Site. Aikcn. SC

              9.   Finding Summary:

                   The Department of Energy (Department) has contracted with Westinghouse Savannah River
                   Company, LLC (Westinghouse) to manage and operate the Savannah River Site (Savannah River)
                   through September 30, 2006. As of August 2, 2002, Westinghouse had 534 open and active
                   service procurements, worth $100,000 or more each, with a total value of about $518 million, that
                   it had awarded since October 1996.

                   In order to promote competition, Federal Acquisition Regulations require Government contractors
                   to procure goods and services on a competitive basis to the maximum practical extent, consistent
                   with the objectives and requirements of the procurements. The management and operating
                   contract requires that Wcstinghouse maximize the use of competition in accomplishing work in all
                   business areas at the site. Accordingly, Westinghouse established policy stating that it will
                                                                                                                  apply
                   the best in conunercial practices to ensure the acquisition of quality goods and services at fair and
                   reasonable prices and will use effective competitive techniques. In addition, for those situations
                   where sole-source transactions cannot be avoided, the policy requires the procurement file
                   adequately document the exclusive capability of the selected vendor.

                   As of August 2002, about 59 percent of Westinghouse's open and active service procurements
                   worth $100,000 or more were competitively awarded. However, of the 40 procurements we
                   reviewed, 10 valued at about $10.7 million were not competed to the maximum extent practicable.
                   Specifically, seven were awarded on a sole-source basis without substantiating the exclusive
                   capability of the vendor, and three were awarded competitively, but with restricted competition.

                   These conditions occurred because Westinghouse personnel did not always follow approved
                   policies and procedures, and neither Westinghouse nor the Savannah River Operations Office
                   established internal controls to ensure employee compliance. As a result, the Department had no
                   assurance that Westinghouse obtained the best value on the Department's behalf, and lost potential
                   savings from competition.

              10. Keywords: (include as many as you like)

                    Westinghouse Savannah River Company           Procurement
                    Savannah River Site                           Sole-Source
                    Competition                                   Commercial Practices
                    Best Value                                    Subcontracting
                    Exclusive Capability                          Federal Acquisition Regulations
